GR-50-98-005
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANTS TO THE INDIANAPOLIS, INDIANA POLICE DEPARTMENT
AWARD NUMBERS 95-DL-BX-0018 AND 95-CC-WX-0429
Audit Report Number GR-50-98-005
January 1998
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Indianapolis, Indiana Police Department (Indianapolis).
Indianapolis received grants of $1,330,074 to hire or rehire 18 additional sworn
police officers under the Phase I program, $1,950,000 to hire or rehire 26 officers under
the Accelerated Hiring, Education, and Deployment (AHEAD) program, supplemented by the
Universal Hiring Program (UHP). Indianapolis also received a MORE grant of $301,358;
however, this was returned to the COPS office unused. The purpose of the additional
officers is to enhance community policing efforts. Generally, Indianapolis properly
managed the COPS grants:

- Costs charged to the grants were in accordance with grant requirements. As of
  September 30, 1997, Indianapolis had requested reimbursement of about 57 percent of the
  allowable costs for the Phase I grant, and 84 percent of the allowable costs for the AHEAD
  grant. 
- Budgeted funds for police services increased while the number of officers budgeted
  remained at the level before the first grant was awarded. In addition, Indianapolis
  appeared to be making a good faith effort to fill officer vacancies timely. 
- Funds provided under the grants were used to enhance Indianapolis's community
  policing efforts. The number of officers performing community policing activities
  increased by the number of officers funded under the grants.

However, Indianapolis violated some grant conditions:
 

- The Department Initial Report to the COPS office did not accurately state the number
  of budgeted sworn officers. Also, the Officer Progress Reports, one Annual Department
  Report, and several Financial Status Reports were not submitted timely. In addition, two
  Financial Status Reports were not filed at all.

 
#####